<html>
<title> - CAMPOS AND GARRISH NOMINATIONS</title>
<body><pre>[Senate Hearing 115-509]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-509

                     CAMPOS AND GARRISH NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE NOMINATIONS OF MR. JAMES EDWARD CAMPOS TO BE DIRECTOR OF 
 THE OFFICE OF MINORITY ECONOMIC IMPACT, DEPARTMENT OF ENERGY; AND THE 
 HONORABLE THEODORE J. GARRISH TO BE AN ASSISTANT SECRETARY OF ENERGY 
                        (INTERNATIONAL AFFAIRS)

                               __________

                             MARCH 15, 2018

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
        Available via the World Wide Web: http://www.govinfo.gov
        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-770                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>                          
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                           
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Garrish, Hon. Theodore J., nominated to be an Assistant Secretary 
  of Energy (International Affairs)..............................     3
Campos, James Edward, nominated to be Director of the Office of 
  Minority Economic Impact, Department of Energy.................     7

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     2
Campos, James Edward:
    Opening Statement............................................     7
    Written Testimony............................................     9
    Responses to Questions for the Record........................    25
Garrish, Hon. Theodore J.:
    Opening Statement............................................     3
    Written Testimony............................................     5
    Responses to Questions for the Record........................    22
Heller, Hon. Dean:
    Letter for the Record........................................    27
Herrington, Hon. John S.:
    Letter for the Record........................................    28
Hodel, Hon. Donald Paul:
    Letter for the Record........................................    29
Murkowski, Hon. Lisa:
    Opening Statement............................................     1

 
                     CAMPOS AND GARRISH NOMINATIONS

                              ----------                              


                        THURSDAY, MARCH 15, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here this morning to consider two nominations for 
the Department of Energy (DOE): Mr. Ted Garrish, to be the 
Assistant Secretary of Energy for International Affairs, and 
Mr. James Campos, to be the Director of the Office of Minority 
Impact.
    Mr. Garrish, you have a long and a very distinguished 
career of service, beginning with the Department of Justice, 
helping to establish the Consumer Product Safety Commission. 
You have also had a few tours through the Department of Energy, 
including as General Counsel, the Assistant Secretary for 
Nuclear Energy, the Federal Inspector for the Alaska Natural 
Gas Transportation System, and most recently as a Senior 
Advisor to Secretary Perry. Your positions outside of the 
Federal Government are also numerous. The one that I found 
perhaps the most interesting was your nine-year stint as the 
Founder and Chairman of Wild Goose Brewery in Cambridge, 
Maryland. You have a wide diversity of interests here.
    The position you have now been nominated for, the Assistant 
Secretary for International Affairs, is quite important within 
the Department. So much that goes on in the energy space 
requires partnership and cooperation with countries around the 
world. This could mean encouraging international cooperation 
for research and development activities, facilitating energy 
trade and investment or promoting American leadership as we 
engage in bilateral and multilateral energy treaties and 
obligations. These are all areas of great interest to this 
Committee and we're grateful to you for your continued 
willingness to serve. We look forward to hearing from you this 
morning.
    Mr. Campos, as Director of the office you have been 
selected to lead, you will have the opportunity to strengthen 
diversity, not only within the Department of Energy, but also 
within the greater energy and scientific community as a whole. 
Our nation would benefit from a more diverse workforce in the 
STEM fields, and I would certainly encourage the Department of 
Energy to be a leader on this challenge. We want to ensure 
opportunities exist for minority students to engage deeply in 
these fields. Critical allies in this engagement should include 
minority-serving institutions and minority-owned businesses 
working with the Department.
    So again, I thank you both for your willingness to serve at 
the Department of Energy. Given the positions that you will 
hold, once confirmed, I would not expect that you will be a 
stranger to our Committee. I would ask for your commitment to 
work with us, once you are confirmed, would certainly expect 
that, and know that we can count on that.
    With that, I will turn to Senator Cantwell for her opening 
comments.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    I am pleased the Committee is considering these two 
nominees this morning.
    The Assistant Secretary of Energy for International Affairs 
is responsible for managing international energy policy and 
coordinating the Department's programs involving international 
cooperation, and Mr. Garrish brings an important long history 
with the Department of Energy, dating back to the early days of 
the Reagan Administration. He is very experienced.
    In addition, his prior service at Justice Department, the 
Federal Trade Commission, the White House Consumer Product 
Safety Commission, the Interior Department, extends further 
back to the Nixon Administration. The Committee has reported 
and the Senate has confirmed him three times before as General 
Counsel of the Department of Energy, as Assistant Secretary for 
the Congressional International Public Affairs, and as the 
Federal Coordinator of the Alaska Natural Gas Transportation 
System.
    We welcome also, Mr. Campos. While this is his first 
appearance before the Committee, he has had extensive 
experience in state government, which will serve him well, if 
confirmed.
    The Office of Minority Economic Impact has responsibility 
for ensuring that minorities are afforded an opportunity to 
participate in the energy programs of the Department. We rely 
on this Office to ensure that minorities are part of a diverse 
energy workforce that we need to fill the jobs in a rapidly 
evolving energy environment.
    I look forward to hearing more about his prior experience 
at Nevada's Equal Rights Commission and Commissioner of 
Nevada's Consumer Affairs division and as Director of the 
College of Southern Nevada's Renewable Energy Program.
    Thank you, Madam Chair and, again, welcome to the nominees.
    The Chairman. Thank you, Senator Cantwell.
    The rules of the Committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony. I would ask that you both please rise and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources, 
shall be the truth, the whole truth and nothing but the truth?
    [Witnesses respond with, yes.]
    The Chairman. You may be seated.
    Before you begin your statements, I will ask three 
questions addressed to each nominee who appears before this 
Committee.
    First, will you be available to appear before this 
Committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    [Witnesses respond with, yes.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    [Witnesses respond with, no.]
    The Chairman. And are you involved or do you have any 
assets held in blind trusts?
    [Witnesses respond with, no.]
    The Chairman. Alright. Thank you very much.
    We will begin with you, Mr. Garrish. We would invite you to 
introduce your family or any guests you may have with you today 
and know that your full statement will be included as part of 
the Committee record.
    Again, we thank you both for being here.
    Mr. Garrish.

   STATEMENT OF HON. THEODORE J. GARRISH, NOMINATED TO BE AN 
     ASSISTANT SECRETARY OF ENERGY (INTERNATIONAL AFFAIRS)

    Mr. Garrish. Yes, thank you very much.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee and the professional staff, thank you for the 
opportunity to appear today as nominee for the position of 
Assistant Secretary for International Affairs at the U.S. 
Department of Energy.
    It is an honor to appear before the Committee, and I 
appreciate the confidence President Trump and Secretary Perry 
have shown in nominating me for this position.
    First, I would like to introduce my family here today. My 
wife, Dory Stacks, to my right, who is the strength and support 
as I embark on this important task. And also, representing my 
home town, Annapolis, cheering section, a dear friend, Gaye 
Schamburg, is with my wife.
    I have other members of the family undoubtedly watching via 
live streaming. That's an excellent feature and good for people 
that aren't available.
    I'm especially pleased to be back in front of the Senate 
Energy Committee. Over the last 25 years, I've spent many a 
night working with your staff on both sides on markups and 
related items. In some ways, this is almost like a second home 
for me here in Washington.
    In my time in public service I have been honored to be 
confirmed for several positions which you have mentioned, 
including General Counsel, two Assistant Secretary positions 
and I was able to serve as Federal Inspector of the Alaska 
Natural Gas pipeline which gave me the opportunity to visit 
many parts of Alaska that were in the process of energy 
development and allowed me to see many remote villages. All of 
these positions have been an amazing journey for me.
    With that background I wanted to spend just a minute, if I 
could, to tell you how I came to have an interest in 
international affairs. For the last 10 years I have been 
involved in helping companies in international business. One 
important area I consulted on was to help countries interested 
in joining the group of nations using atomic energy for 
peaceful purposes. In that effort I advised countries how to 
set up governance regimes including legislation, regulations, 
treaties and conventions for the peaceful pursuit of nuclear 
energy. This work was all done pursuant to E-10 regulations of 
the NNSA.
    What I learned from these projects was the tremendous 
benefit that occurs for the United States when these efforts go 
forward cooperatively with other nations. For the U.S., besides 
the business benefits, is the transference of safety culture 
that the United States best brings to emerging nations. Without 
this interaction, the world would not be safe. Our experience 
has made an impression on me, highlighting the importance of 
these international activities.
    If confirmed, I would bring to bear all my experience that 
I've gained during the course of my extensive career in the 
energy sector, along with my experience in international 
affairs. The Office of International Affairs, in conjunction 
with the State and Commerce Department will focus on leveraging 
America's world leadership in clean, safe and affordable energy 
production to expand the U.S. commercial presence around the 
world. If confirmed, I will work to ensure that this mission is 
achieved.
    Again, I would like to thank you for the opportunity to 
appear today. If confirmed, I look forward to working with the 
members of this Committee and members of the staff in 
furthering the energy interests of the United States, 
internationally.
    Thank you very much.
    [The prepared statement of Mr. Garrish follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Garrish.
    Mr. Campos, welcome to the Committee.

 STATEMENT OF JAMES EDWARD CAMPOS, NOMINATED TO BE DIRECTOR OF 
  THE OFFICE OF MINORITY ECONOMIC IMPACT, DEPARTMENT OF ENERGY

    Mr. Campos. Thank you, Senator.
    Chairman Murkowski, Ranking Member Cantwell, members and 
this entire staff, this Committee, it is my honor to appear 
before you from the great State of Nevada as the President's 
nominee to be the Director of the Office of Minority Economic 
Impact at the Department of Energy.
    I would also like to take this opportunity to thank 
President Donald J. Trump and Secretary Rick Perry. I am truly 
humbled by the confidence they have placed in me with this 
nomination.
    Most importantly, I would like to thank my family who are 
here with me today, my father, Joseph Campos, and my mother, 
Christina Campos. My parents are middle school sweethearts who 
have been married for 57 years. They were born in Omaha, 
Nebraska, in the 1930s and are children of immigrants of Mexico 
who came to the United States of America in the early 1900s.
    My father proudly served in the U.S. Navy during the Korean 
War and went on to serve 15 additional years in the Naval 
Reserve. He was later selected to serve in the U.S. government 
agency and was stationed in eight different politically, 
socially and economically emerging Latin American countries 
over a 16-year period. At that time, my mother had an equal 
challenging job raising four children. I am proud of them both. 
Mom, Dad, without your love, support and guidance, a son could 
not possibly have been--your son could not have possibly found 
himself in this height and honor.
    Also in attendance is my best friend of 10 years who 
happens to be my lovely and talented fiance, Irma Aguirre. 
Thank you for the many years of support, unconditional love and 
understanding.
    To my sisters, Laurie and Vickie, my brother, Joe, and 
friends who are here with me today, thank you as well for all 
your constant support.
    I also would like to thank my grade school teacher that was 
able to make it today, Janice Artino. Ms. Artino, my journey 
started with you in fifth grade and my deepest appreciation for 
you being the inspiration to never give up and to always be the 
best I could be.
    Finally, I would be remiss if I did not thank all of my 
colleagues and friends in Nevada whose mentorship led me to be 
here today.
    I believe I come before you with the necessary background 
and experience to lead the Office of Minority Economic Impact 
at the Department of Energy. I have worked as a state-wide 
agency administrator, a regulatory and equal rights 
commissioner, a higher education official, a business 
development advisor and an entrepreneur working with diverse 
groups. All of these experiences have provided me the 
substantive skills in organizational leadership, human resource 
management, strategic management, renewable energy 
applications, public relations, accountability, performance 
metrics, planning, setting defined goals and adherence to 
budgetary mandates.
    Should I have the high honor of being confirmed by the U.S. 
Senate, I will look forward to working closely with members of 
this Committee and staff to ensure we continue to grow a 
culture of inclusivity. My hope is that together we will 
continue to inspire and integrate a new generation of 
scientists and engineers to develop the technology that is 
needed to meet the challenges of the future of this great 
nation.
    Again, Chair Murkowski, Ranking Member Cantwell, members 
and staff of the Committee, thank you again for this 
opportunity to appear before you as the President's nominee for 
the Director of the Office of Minority Economic Impact.
    Thank you for your time today. I look forward to answering 
your questions as you consider my nomination.
    [The prepared statement of Mr. Campos follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Gentlemen, thank you both for being here this 
morning. We welcome you. We welcome your families, your friends 
and your supporters.
    It is really quite touching to know that you have a teacher 
that has been keeping an eye on you, Mr. Campos, and is here to 
make sure that you continue to excel.
    So, congratulations to you all.
    Mr. Garrish, let me start with you. It is good to hear that 
the exposure you had when you were working on the Alaska 
natural gas pipeline issues, you had an opportunity to not only 
be in our urban centers but get out to some of the remote and 
rural areas in Alaska.
    I want to ask a question about our role as an Arctic 
nation, given that with Alaska coming into statehood some 50 
plus years ago we became an Arctic nation by virtue of our 
geography here. We are, as we all know, experiencing a new 
reality in the Arctic as we have an opportunity to access 
resources that were previously much more challenging. We have a 
new reality with increased marine traffic in the region. And 
all of this suggests that our future is going to be one that 
will require greater cooperation with our neighbors to the East 
and to the West and really, throughout the Arctic as a whole.
    Can you speak to what you believe the U.S. role is for the 
changes that we are seeing up in the Arctic? How we lead in 
this area? And also, speaking to the issue of cooperation and 
the level of cooperation that DOE might have whether through 
the Office of International Affairs, working with Russia, 
Canada, other Arctic nations, on issues like research, 
understanding more of, again, the synergies that we have up 
there, but also the challenges that we share.
    Mr. Garrish. Yes, thank you. Thank you for your question, 
Senator. That's, I think, a very important issue.
    For the Department of Energy this is a developing issue, is 
how I would describe it. We currently have at the Department 
something called the Arctic Working Group which has had one 
meeting thus far. It hasn't developed a sense that--and the 
first meeting was mainly organizational, and it includes 
several elements of the Department, our policy office, fossil 
energy, obviously science, Indian energy and several of the 
offices that would have anything to do with the Arctic. Now, 
that feeds into an organization that now has been created 
called the Arctic Executive Steering Committee which is 
composed of the deputies around the government. And so, we 
would then, in our working group, work with our Deputy 
Secretary who would then work with this larger group to 
coordinate Arctic issues to the President. But I will have to 
say that this is simply only a beginning in what we need to do, 
and we haven't really begun to look at issues. So I would think 
it would be helpful and I would commit to you that, if 
confirmed, I would be happy to work with your office in trying 
to define issues that need to be brought before the larger 
bodies.
    Now there also is the Arctic Council which is another 
international group which we participate in. Finland is now the 
Chair, the U.S. was previously the Chair, and they are focusing 
more on scientific research and less on resource development. 
And that is another opportunity for the Department to 
participate in Arctic issues. So between that organization and 
the parts that are in the Department of Energy, I see a really 
important thing that we could pursue in the future.
    The Chairman. Well, I thank you for that.
    Know that you will find me to be very pushy on the Arctic 
issues because I feel that here in this country we have taken, 
kind of, a back seat in an area where the eyes of the world are 
focused on the North. If you don't think that that is the case, 
go talk to the Chinese or talk to those in Asia. India is 
looking to build an icebreaker, India. China already has more 
than we have in this country. It is not just about 
infrastructure, again, it is these cooperative and 
collaborative arrangements. We have some legislation that we 
have been working on that will help to formalize the Arctic 
Steering Committee, the executive committee that you have 
mentioned. When it comes to the issues, we have worked to 
identify a whole slate of concerns.
    So, again, we look forward to bringing them to you. I am 
actually going to be meeting with a panel from PNWER, the 
Pacific NorthWest Economic Region, comprised of Canada and 
Alaska, but I will be pointing out at that meeting this 
afternoon that given now the change at the State Department and 
a recognition that several of the positions that are important 
to us from an Arctic perspective have not yet been filled.
    There is a sense that within the Administration there is 
not a high enough priority that is being placed on the Arctic, 
whether it is at the State Department, whether it is at Energy 
or whether it is at Interior, so you will find that this is one 
where I am going to be probing people about.
    I mentioned it to Secretary Zinke, day before yesterday 
when he presented DOI's budget, and said I want to know where 
in the budget we are prioritizing Arctic issues. So know that I 
look forward to further engagement with you on this.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Garrish, you are aware that the Columbia River Treaty 
with Canada, which is about the modernization of our hydro 
system. The relationship between our two countries is of 
critical importance to the entire Pacific Northwest--the region 
of Idaho, Washington, Oregon and Montana. The region's tribes, 
power companies, environmental interests, agriculture 
interests, fishing interests, communities, and towns are all 
focused on how and when we are going to modernize that Treaty. 
Obviously, the Department of Energy is engaged through the 
Bonneville Power Administration, which together with the U.S. 
Army Corps of Engineers, administers the Treaty.
    I am pleased that the State Department's Chief Negotiator 
has begun working with the Canadian counterparts and that the 
bipartisan Congressional delegation has urged the 
Administration to keep this a priority.
    How can you and the Department of Energy and the Office of 
International Affairs work effectively to expedite the 
negotiations and make sure that the negotiating team stays on 
schedule?
    Mr. Garrish. Yes, thank you, Senator. That's a very 
important subject.
    Obviously, this is a process for the negotiation that has 
lagged over a number of years to begin. And we are fortunate 
now that there is, at least this year, set forth the concept 
that we will begin the negotiations.
    Now State will be the lead, but we have, there are two 
parties to this, obviously Bonneville Power and the Corps of 
Engineers. It would be my intention, if confirmed, to assure 
that the views of Bonneville Power and the tribes necessarily 
that are affected with Bonneville, their views are known and 
emphasized to the negotiator so that they can make sure that 
their voices are heard in the process. I would specifically, if 
confirmed, work with your office and the other delegations that 
this will be important to, because I know this is an important 
issue. But we need to get this negotiation on and completed, so 
I appreciate that.
    Senator Cantwell. Well, thank you.
    If I could talk bluntly, even though we're in this public 
forum?
    Mr. Garrish. Yes.
    Senator Cantwell. I think you could play a key role, even 
though State is very much in the lead, because I feel that 
there is so much dialogue going on between the United States 
and Canada right now in a lot of trade discussion. I am worried 
that somehow the Columbia River Treaty issue doesn't get the 
full attention that it needs.
    Our previous Energy Secretary understood, and I am sure 
this Energy Secretary understands, how a broad discussion of 
modernization might be able to help us get over the goal line 
here with the Treaty. It is so very, very important and I hope 
you will use your great, long history with the agency and your 
skill to help push things along. I guess the point is that I do 
think the region, in and of itself, both on the Canadian side 
and on the U.S. side, can bubble up a lot of great ideas 
through the Bonneville Power Administration on how to resolve 
the Treaty.
    I would just, again, hope that you, as a Department of 
Energy representative, would help nurture that process along 
and not let us get stuck with top-down politics between Canada 
and the United States that may have a lot of different issues 
on the table in the next several months.
    Mr. Garrish. Senator, thank you.
    I can assure you that, if confirmed, I will make this one 
of my priorities.
    Senator Cantwell. Thank you.
    Mr. Campos, how do we continue the outreach to women and 
minorities on energy policy when energy is changing so 
dramatically right now? And what do you think are some of the 
ways in which we can help diversify the sector?
    Mr. Campos. Senator Cantwell, thank you for the question.
    It is vitally important that we do exactly what you just 
mentioned. We have to outreach better. We have to educate 
better. We have to get out there in the communities, in the 
institutions, to work on these issues and it is my promise that 
I will, as soon as and if I'm honored to be confirmed, to look 
into those issues, to go through the office, to do a review, to 
see how we can improve those many areas.
    But my main focus would be on the education and pushing 
that forward.
    Senator Cantwell. Thank you.
    Well, I am very excited about your nomination and the role 
that you can play. In the energy bill that we passed, we tried 
to give the Department of Energy more focus to help us in the 
transitioning of energy to help educate and attract 1.5 million 
new energy workers that we need.
    Some of the work we have been able to do in our state in 
that transition, even on the smart grid education, is 
encouraging. We have been able to train over 2,000 individuals 
in those new skills that are needed. The upshot from the 
educators that I have seen is that even a starting apprentice 
is making $25 an hour.
    To me, the good news is these are high paying jobs and we 
should just figure out what are the best ways to reach out to 
those educational institutions to help diversify. I look 
forward to working with you on that.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Welcome, gentlemen. I appreciate your willingness to serve.
    Mr. Garrish, let me start with you. You have had previous 
tours at the Department of Energy, and much of your career has 
involved working in nuclear energy, including working at the 
DOE as Assistant Secretary for Nuclear Energy and working at 
the Nuclear Energy Institute. I am also aware that you have 
been advising Secretary Perry for almost a year on nuclear 
policy. What has been your advice so far on the Yucca Mountain 
licensing situation?
    Mr. Garrish. Well, there are a couple of points that I'd 
like to make. Thank you for the question, Senator.
    My first point is that the position that I'm going to be 
going into has no relationship with Yucca, so I'd just like to 
make sure that you understand that that's how this is 
organized.
    I have consulted with the Secretary on a variety of issues 
and one of them has been Yucca. I have explained to him, 
briefed him on the history and understanding on what the 
history of the program is and that's been the extent of it. And 
there's been some discussions, relative to what's required in 
the cases that are currently before the courts.
    Senator Cortez Masto. Do you support the siting of spent 
nuclear fuel and high level radioactive waste at Yucca 
Mountain?
    Mr. Garrish. Only if it is deemed to be safe and follows 
the--and is authorized by the Nuclear Regulatory Commission.
    Senator Cortez Masto. And when you talk about safe, what 
are you referring to? Scientifically safe?
    Mr. Garrish. Scientifically safe.
    Senator Cortez Masto. Thank you.
    So, based on your comments, I can, I guess, take comfort in 
the fact that you will not be advising Secretary Perry in the 
future on anything having to do with Yucca Mountain?
    Mr. Garrish. That is my intention.
    Senator Cortez Masto. Alright, thank you.
    Mr. Campos, good to see you again. Thank you for visiting 
with me. I really appreciate it.
    We talked a little bit about this when we met. It has been 
no secret that this Administration has had difficulty 
cultivating good relationships with minority communities and in 
some ways they have barely even tried and have had an extremely 
hostile relationship.
    In a position such as yours, whose job will be to outreach 
and work with our minority communities, the climate that this 
Administration has engendered can only make your job more 
difficult and many might be skeptical or hesitant to work with 
you. How do you plan to overcome these obstacles? And what is 
it that you can do to build bridges where they have become so 
fractured?
    Mr. Campos. Senator Cortez Masto, thank you for the 
question and nice seeing you again as well.
    There's a lot of complexities and a lot of effort that is 
going to need to be done to reach out to the minority 
communities in an effective manner. My intention is to follow 
the guidelines of this office to continue the good work that 
has been done and to reach out, even further, into the 
communities at large, small and large, the institutions. 
Education is a very important aspect of getting into these 
communities, not just higher education, but K through 12. Being 
involved in these communities in a proactive manner is vital.
    In my background, I have had experience in those areas as 
Commissioner of Consumer Affairs dealing with minorities and 
the outwardly communities. In my position in higher education 
both at Nevada State College and the College of Southern 
Nevada, I had to deal with these issues of outreach. I'm trying 
to include minorities at a greater capacity and understand the 
importance that this is vital. And I will do everything in my 
power to make sure I fulfill the mission of this office.
    Senator Cortez Masto. Thank you, I appreciate your 
comments.
    Mr. Garrish, the Fiscal Year '19 budget request includes a 
reduction of about $1.3 billion from DOE's Office of Energy 
Efficiency and Renewable Energy and reduces R&D funding from 
$3.7 billion to $1.6 billion. Considering your office manages 
the relationship with the Clean Energy Ministerial, do you 
think this large de-emphasis on clean energy technologies by 
this Administration will affect your work with international 
partnerships like this that have historically looked toward the 
United States for leadership in this area?
    Mr. Garrish. I do not believe that that budget will 
necessarily affect the collaborations that are ongoing. In 
other words, I think that they are, the collaborations are 
funded.
    We do work with the individuals within the agency and 
there's a lot of scientific work or scientific individuals that 
are available to do these collaborations. And that goes with 
all of the different offices in energy. We work with the 
individuals from the particular office.
    As I understand it, those individuals will continue to be 
available. In other words, what the budget may have cut, I 
don't believe will affect the ability of the individuals and 
the scientists to join in this.
    In addition to that, much of this is done at the labs and 
their budgets are modestly stable, so I would say that those 
individuals will also be available.
    Senator Cortez Masto. Thank you.
    I know my time is up. Thank you, again. I appreciate you 
being here.
    The Chairman. Thank you, Senator.
    I want to follow on with your comments because I, too, 
share the concern that at a time that we want to maintain that 
leadership role, globally, that our global competitiveness, 
that the advances that we have made in our research and 
development be allowed to continue.
    The U.S. National Science Board released a statement last 
month stating that China will surpass the U.S. in total 
research and development expenditures this year. When you think 
about the strength of our national labs, they are unparalleled 
in quality. I think we recognize that. But what we have seen is 
we have seen China, really, start taking the lead here in 
commercializing many of the clean energy technologies that we 
actually developed first here in the United States. Know that 
this is something that I think we need to continue as a 
priority. Maybe a little bit broader than Senator Cortez Masto 
has framed it with a focus on just that budget.
    How do we ensure, Mr. Garrish, that the U.S. does remain 
globally competitive in developing, commercializing and 
exporting the technologies that are developed through these DOE 
programs so that we can continue to be the leaders when it 
comes to these clean technologies that are going to help us 
from many different perspectives, but most certainly as it 
relates to our environment?
    Mr. Garrish. Yes, thank you for the question.
    One of the things that is occurring at the Department is 
there is considerable work right now in collaboration with a 
number of organizations around the world, and that will 
continue. And what we need to do is emphasize the relationships 
to make sure that we continue our global competitiveness. For 
instance, there's a Clean Energy Ministerial coming up in May. 
This will be very important and we need to continue to 
emphasize the importance of that. There's a G7 coming up in 
October in Nova Scotia, and this will be important for that 
event. The IEA is also a very important organization and we 
have a role in that and what we need to do is continue to 
advance this concept in the process of governance of that 
organization where we are large contributors, and it will be 
important for us to make this one of the priorities for that 
organization.
    The Chairman. Well, thank you for that. I appreciate you 
mentioning the IEA, the International Energy Agency. We had Dr. 
Birol before the Committee here in early January as head of the 
IEA, and he provided some pretty compelling testimony.
    You know, his four upheavals in the energy sector, I keep 
repeating as I move around, but I do think it is important that 
working with IEA in your position will be important and I am 
glad to hear you are placing a priority on it.
    Mr. Campos, as you know, Alaska is home to half of the 
tribes in the country and while you may have certain experience 
in the West working with our tribes, I am a firm believer that 
you get no better education than by going and visiting, being 
in the villages, in the communities and seeing firsthand.
    So I would ask that after you are confirmed that you would 
hopefully consider a trip to Alaska to meet with our DOE 
employees. It will not take you long to find them. We only have 
two and they are in the Office of Indian Energy. We have been 
pushing for years now, to bump that up. They actually doubled 
the number because for years we were literally an office of one 
for, again, a state that is the size of one-fifth the country 
and has half the tribes, and we have one DOE individual. I 
would hope that I would have your commitment to not only come 
to the state but to work through the Office of Indian Energy as 
they seek to facilitate grants to tribes to assist with the 
development of energy solutions.
    As you know, in parts of rural Alaska we have the highest 
energy costs in the country, even higher than Hawaii, and not 
that we want to arm wrestle for first place here, we all want 
to work to lower them. I would ask that you help us in that 
regard.
    Mr. Campos. Senator, thank you for the comments.
    I will assure you today that I will make it a priority to 
visit the great State of Alaska and visit these individuals, 
the two individuals in particular, that you've mentioned.
    It is my intention to make sure that we find a way that all 
states, including Alaska, get the proper resources and 
attention. So it's my promise today that I will make sure to 
visit Alaska and the tribes.
    The Chairman. Good. Well I appreciate that and we will be 
happy to work with you in your new capacity and offer 
suggestions as to some of the places that you might want to 
visit to get a real understanding as to some of the challenges 
that we are facing. So thank you for that.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    To ensure the fitness of nominees for any of our appointed 
positions, I ask every nominee who comes before me to answer 
the following two questions. And so, I would like for Mr. 
Garrish to answer and then Mr. Campos.
    First, since you became a legal adult have you ever made 
unwanted requests for sexual favors or committed any verbal or 
physical harassment or assault of a sexual nature?
    Mr. Garrish. No.
    Mr. Campos. No.
    Senator Hirono. Second question. Have you faced discipline 
or entered into a settlement related to this kind of conduct?
    Mr. Garrish. No.
    Mr. Campos. No.
    Senator Hirono. Thank you.
    Question for Mr. Garrish. DOE has been working with our 
Caribbean partners on hurricane recovery and a longer-term 
transition toward clean energy and the people of Hawaii 
understand the unique challenges that come with living on 
islands and we face--I have here the highest energy costs but, 
among the highest--energy costs in the United States and are 
working to reduce our reliance on imported petroleum as our 
main fuel source.
    Hawaii has a forward-thinking standard of 100 percent 
renewable electricity by 2045, and we have cut our dependence 
on oil by 41 percent since 2006 which is saying a lot because 
we were the most oil-dependent state in the entire country up 
to that point.
    What is your agenda for helping the island communities in 
the Caribbean and how would you apply those lessons to islands 
in the Pacific such as Palau or Micronesia?
    Mr. Garrish. Yes, Senator, thank you for the question. I 
have a couple of thoughts.
    The first is an observation. I had the opportunity in 
Hawaii to work on a battery issue that involved conversion to 
wind from oil production, and I saw the advantages of that in 
the time that I was doing that work.
    To me, one of the important pieces of research that we need 
to continue and we need to foster around the world is battery 
development for commercial use at a commercial scale. I think 
that that's one of the areas where the island nations that 
don't have to then use oil for generation of electricity is 
very important.
    The other area that I think, and this is especially in the 
Caribbean, is the development of small-scale LNG. That has 
been--we need to work through some ways to get those permits 
done quicker, and we also need to find how we can do that 
economically on small scale and be as a lot of these plants 
that are currently being built are fairly large for their 
delivery process and there is a limited number of opportunities 
for the smaller scale. And that is one of the things, I think, 
that we need to concentrate on to work for the islands. I think 
that's important.
    Senator Hirono. Yes, I would say that there are questions 
about economies of scale for islands such as Palau or 
Micronesia with their much smaller populations. But I encourage 
you to continue to do those things that will enable these 
places to become energy self-sufficient.
    For Mr. Campos, if confirmed, you will oversee the DOE's 
Office of Minority Business and Economic Development. As a 
member of the Small Business Committee here, I believe the 
Federal Government has a responsibility to the public to ensure 
that small businesses, including minority-owned small 
businesses, have fair access to the marketplace.
    We also know from the DOE's own U.S Energy and Employment 
report that ethnic and racial minorities make up a lower-than-
average portion of the energy workforce. What is your plan for 
improving the access of minority workers and minority-owned 
small businesses to the Department of Energy to national labs 
and the energy sector in general?
    Mr. Campos. Senator, thank you for the question.
    That is one of our, if so honored to be appointed, it's one 
of the pillars of the office is to make sure that minorities 
have access to the many energy programs that the Department of 
Energy offers. And it will be my job, in particular, to make 
sure that there's proper education in these communities. Again, 
and not just only at the public institutions of education, but 
also in the business development centers, the chambers of 
commerce, wherever there is an ability to communicate these 
initiatives.
    I'll make sure to do the best that this office can to 
communicate and to allow and to foster and grow and increase 
minority participation.
    Senator Hirono. What I would want to see, if you are 
confirmed, is that you develop a base of information so that 
you know where you are with regard to the status of minority-
owned businesses and minorities in the energy workforce, and 
then I am assuming you would get confirmed through your 
efforts, you know, how those numbers can increase. I would like 
to see that kind of data and information presented to this 
Committee in the future.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator Cortez Masto, did you have any follow-on questions?
    Senator Cortez Masto. No, thank you.
    The Chairman. Thank you.
    Well, gentlemen, I thank you for your willingness, again, 
to serve and for appearing before the Committee here today.
    As I think about so many of the priorities, we talk a lot 
about workforce development and whether it is ensuring that we 
have skilled workforce in our nuclear areas or you know, 
whatever aspect of the energy sector. I think we are reminded 
that we are lacking in certain areas, most notably in the 
diversity in the STEM workforce.
    Mr. Campos, this is something that you are going to be 
faced with. National Science Foundation finds that women only 
represent 28 percent of the STEM workforce and that African 
Americans, Hispanics, American Indians and Alaska Natives are 
all significantly underrepresented. I think we all know that we 
have to do better.
    You have mentioned that it comes with education. We need to 
get in there earlier, not just at the university level but 
really working to provide some direction here so that we can 
build out and increase the necessary diversity. You have a job 
in front of you that has bearing on what everybody does within 
the Department of Energy.
    Mr. Garrish, one last comment and it stems off something 
Senator Hirono has raised. We have been pioneering microgrids 
in Alaska. We have over 200 in the state right now. We are, 
kind of, our own big, little island of energy opportunity and 
innovation. I think about how we can take lessons learned from 
a remote, high-cost place like Alaska where so many of our 
communities are 100 percent reliant on diesel and how we are 
transforming them into an energy future that is renewably 
fueled, clean and affordable. How we make that transition? How 
we can share this with whether it is islands like Palau or 
CNMI, sharing our lessons learned with Puerto Rico as they are 
trying to rebuild?
    I see the role that you would have within the Office of 
International Affairs there at DOE as being really key in 
helping to facilitate some of this great innovation, this great 
knowledge that will allow us to move to a more transformative 
space when it comes to our clean energy solutions.
    It is an exciting opportunity for you and a lot on your 
plate.
    Gentlemen, again, thank you for your willingness to serve. 
My hope is that we will be able to advance your nominations 
expeditiously.
    We thank you for being here, and we thank you and your 
families for the support that they have provided.
    With that, the Committee stands adjourned.
    [Whereupon, at 10:53 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ---------- 
                              
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
